No. 19-

IN THE

Ou,preme Court of tbe ainiteb iikateo
NESTLE USA, INC.,
Petitioner,
v.
JOHN DOE I, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,951 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 25, 2019.

Colin Casey ogan
Wilson-Epes Printing Co., Inc.

